               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




Inspection Report

Inspection of Intelligence Oversight
Activities at Selected Field Sites



                      Department of Energy
                          Washington, DC 20585




 MEMORANDUM FOR THE SECRETARY
INS-O-04-01                                                  August 2004
•     While required annual reviews to assess adherence to guidelines regarding retention of information
      on “U.S. persons” were conducted, the reviews were not always complete. In several instances,
      not all records were completely reviewed by analysts to ensure adherence with retention
      restrictions outlined in E.O. 12333.

•     None of the analysts we interviewed at Pacific Northwest and Lawrence Livermore National
      Laboratories could correctly describe the process pursuant to the Procedures for reporting conduct
      that may violate E.O. 12333.

Additionally, we noted that the Procedures and IN policies were periodically updated to reflect DOE
organizational changes. However, the Procedures and two intelligence orders did not specifically
address the roles and responsibilities of NNSA, which was established in 2000.

MANAGEMENT REACTION

Management concurred with our recommendations and identified corrective actions to address our
concerns. Management’s comments are provided in their entirety in Appendix B of the report.

We found management’s comments to be responsive to our report.

Attachment

cc:    Director, Office of Counterintelligence
       Chief, Office of Defense Nuclear Counterintelligence
       Manager, Richland Operations Office
       Manager, Livermore Site Office
       Director, Policy and Internal Controls Management (NA-66)
       Director, Office of Program Liaison and Financial Analysis (ME-100)
INSPECTION OF INTELLIGENCE OVERSIGHT ACTIVITIES AT
SELECTED FIELD SITES


TABLE OF
CONTENTS



               Overview

               Introduction and Objective………………………….……… 1

               Observations and Conclusions…………………….……… 2


               Details Of Findings

               Knowledge of Procedures…………………………………. 3

               Annual Retention Review……………………………..…… 3

               Procedures……………..……………………………………. 5


               Recommendations………………………………………... 6


               Management Comments…………………………………. 6


               Inspector Comments…...…………………………………. 6


               Appendix

               A. Scope and Methodology……………………………….. 7

               B. Management Comments………………………………. 8
Overview

INTRODUCTION    In order to ensure the effective conduct of United States
AND OBJECTIVE   intelligence and counterintelligence activities and the protection of
                the rights of “U.S. persons” and entities, the President issued
                Executive Order 12333 (E.O. 12333), “United States Intelligence
                Activities,” on December 4, 1981. E.O. 12333 establishes Federal
                government policy and direction for the national intelligence effort
                “in order to provide for the effective conduct of United States
                intelligence activities.” To implement E.O. 12333, the Department
                of Energy (DOE) issued “Department of Energy Procedures for
                Intelligence Activities” (Procedures) on October 19, 1992. The
                Procedures, which were supplemented five times through 1999 to
                reflect organizational and policy changes within DOE, govern
                activities including the collection, retention and dissemination of
                information about “U.S. persons” by DOE intelligence elements,
                and the reporting of conduct that may violate E.O. 12333 to the
                Director of the Office of Intelligence (IN) and to either the
                Inspector General or the General Counsel.

                Among other things, the Procedures ensure that DOE intelligence
                activities do not violate the rights of “U.S. persons.” E.O. 12333
                and the Procedures define a “U.S. person” as a U.S. citizen, an
                alien known to be a permanent resident alien, an unincorporated
                association substantially composed of U.S. citizens or permanent
                resident aliens, or a corporation in the U.S., except for a
                corporation directed or controlled by a foreign government. The
                Procedures stipulate that all collected intelligence information
                concerning “U.S. persons” must be reviewed annually to ensure
                that it is retainable in accordance with the Procedures. The
                Procedures also require that DOE intelligence personnel achieve a
                “requisite familiarity” with E.O. 12333 and the Procedures.
                Understanding the definition of a “U.S. person” is important to
                avoid violating E.O. 12333 and the Procedures. Similarly, the
                proper reporting of conduct that may violate E.O. 12333 is
                fundamental to the oversight process.

                IN is responsible for establishing DOE intelligence policy,
                ensuring compliance with this policy, and maintaining intelligence
                information subject to the provisions of E.O. 12333. The Office of
                Counterintelligence (OCI) and the National Nuclear Security
                Administration’s (NNSA) Office of Defense Nuclear
                Counterintelligence (ODNCI) are responsible for
                counterintelligence programs to protect DOE facilities against
                espionage and, therefore, deal with “U.S. persons” information
                subject to E.O. 12333. OCI and ODNCI utilize IN facilities and
                must coordinate with IN regarding intelligence oversight.



Page 1                                      Inspection of Intelligence Oversight
                                               Activities at Selected Field Sites
                   The objective of this inspection was to determine if Federal and
                   contractor personnel affiliated with intelligence and
                   counterintelligence activities at selected DOE and NNSA field sites
                   are in compliance with pertinent policies and procedures regarding
                   intelligence activities. We interviewed intelligence and
                   counterintelligence analysts at the Pacific Northwest National
                   Laboratory (Pacific Northwest) and the Lawrence Livermore
                   National Laboratory (Livermore); and, DOE and NNSA managers
                   at the Richland Operations Office and the Livermore Site Office.
                   Additionally, pursuant to the “Government Performance and
                   Results Act of 1993” (GPRA), we examined performance measures
                   in the context of the oversight of intelligence activities.

OBSERVATIONS AND   We concluded that, at the sites we visited, the Federal and
CONCLUSIONS        contractor personnel were generally in compliance with pertinent
                   DOE policies and procedures for intelligence activities. However,
                   we found that:

                      •   Although the Procedures stipulate that the Director, IN, will
                          ensure that training is conducted so that personnel achieve
                          a “requisite familiarity” with E.O. 12333 and the
                          Procedures, only four of the intelligence and
                          counterintelligence analysts we interviewed at Pacific
                          Northwest and Livermore could accurately define a “U.S.
                          person.” Also, none of the analysts we interviewed at those
                          laboratories could correctly explain the process pursuant to
                          the Procedures for reporting conduct that may violate E.O.
                          12333.

                      •   While required annual reviews to assess adherence to
                          guidelines regarding retention of information on “U.S.
                          persons” were conducted, the reviews were not always
                          thorough. In several instances, not all records were
                          completely reviewed by analysts to ensure adherence with
                          retention restrictions outlined in E.O. 12333 and the
                          Procedures.

                   Additionally, we noted that although the Procedures and IN
                   policies are periodically updated to reflect changes in DOE
                   organization, the Procedures and two intelligence orders do not
                   specifically address the roles and responsibilities of NNSA, which
                   was established in 2000.




Page 2                                             Observations and Conclusions
Details of Findings

KNOWLEDGE OF          We found that intelligence and counterintelligence analysts were
PROCEDURES            not completely knowledgeable regarding the definition of a “U.S.
                      person” and certain reporting requirements of the Procedures.
                      Understanding the definition of a “U.S. person” is important to avoid
                      violating E.O. 12333 and the Procedures, which were established for,
                      among other things, “the protection of constitutional rights.” We
                      asked 29 analysts from Pacific Northwest and Livermore a series of
                      questions designed to assess their knowledge of E.O. 12333 and the
                      Procedures. All of the analysts had received training and
                      demonstrated knowledge of many aspects of E.O. 12333 and the
                      Procedures. However, not all of the analysts at Pacific Northwest
                      and Livermore could accurately define a “U.S. person,” while none
                      of the analysts could correctly explain the process pursuant to the
                      Procedures for reporting conduct that may violate E.O. 12333.

                      Specifically, only four of the 29 analysts were able to provide the
                      complete definition of a “U.S. person,” which is used to determine
                      how intelligence information is collected, retained, and
                      disseminated. Also, none of the 29 analysts correctly identified the
                      requirement to report conduct that may violate E.O. 12333 to the
                      Director of IN and to either the Inspector General or the General
                      Counsel. Most of those interviewed said that they would report any
                      suspected violations of intelligence guidance to only their supervisor
                      or security representative. One analyst indicated he would report
                      suspected violations to the Inspector General, but did not indicate he
                      would inform the Director of IN.

                      Following a prior OIG review, “Intelligence Oversight Inspection of
                      the Special Technologies Laboratory,” (INS-O-96-01, October
                      1995), which found that employees were not knowledgeable of
                      certain provisions of the Procedures, IN Headquarters provided all
                      intelligence and counterintelligence employees with copies of the
                      Procedures. During our current review, we noted that none of the 29
                      analysts maintained a complete copy of the Procedures, including all
                      five supplements. Only seven analysts could provide us with their
                      individual copy of the Procedures and in each of these seven cases,
                      one or more of the supplements were missing.

ANNUAL RETENTION      We determined that required annual reviews to assess adherence to
REVIEW                guidelines regarding retention of information on “U.S. persons”
                      were conducted, however, the reviews were not always thorough.
                      In several instances, not all records were completely reviewed by
                      analysts to ensure adherence with retention restrictions, as defined
                      in the Procedures.




Page 3                                                             Details of Findings
         The Procedures require reviews to be conducted at least annually
         to assure that collected and retained intelligence information about
         “U.S. persons” is relevant, timely, and necessary for the
         performance of intelligence functions. Supplement Four to the
         Procedures also states that certain collected information on “U.S.
         persons,” such as publicly available information, is subject to a
         minimal annual review to validate content. Supplement Four
         further specifies that newly received information may be retained
         for a period not to exceed one year from receipt to determine
         whether it concerns “U.S. persons” information.

         At Pacific Northwest, we determined that a counterintelligence
         official maintained foreign travel briefing documents that contained
         information on “U.S. persons.” Although the individual was aware
         of the requirement for annual reviews, he had not reviewed these
         documents for retention purposes for approximately 18 months.

         At Livermore, we found three instances where officials maintained
         documents that were not reviewed on an annual basis, as defined in
         the Procedures:

            •   Pursuant to his annual review, one intelligence official
                certified that he had no documents in his possession
                containing information on “U.S. persons”; however, he
                maintained a list of the salaries and other data of “U.S.
                persons” employed by Livermore. We determined that the
                salary information was publicly available and was not
                obtained for the performance of his intelligence functions.
                We were told by an IN Headquarters official, however, that
                the salary documentation should not be maintained by the
                intelligence official if there is no job-specific need;

            •   Another intelligence official had collected and retained the
                resumes of two U.S. citizens, which were among dozens of
                resumes of foreign nationals provided to him by a
                counterintelligence official for other than hiring purposes.
                The officials were not aware they were in possession of
                these “U.S. persons” resumes, nor were the two resumes
                identified by the intelligence official in his required annual
                review; and

            •   A third intelligence official had not conducted the required
                minimal review to validate content, in over a decade, of
                reference material that contained “U.S. persons”
                information.




Page 4                                                 Details of Findings
PROCEDURES   In addition to the findings articulated above, we noted that the
             Procedures, as well as two intelligence orders, do not address the
             roles and responsibilities of NNSA. Previous supplements to the
             Procedures address organizational changes, but the latest
             supplement, dated June 1999, does not address the roles and
             responsibilities of NNSA, which was established in March 2000.

             A January 24, 2003, Memorandum of Understanding (MOU) signed
             by IN and NNSA establishes their respective intelligence roles and
             responsibilities, but is not a part of the Procedures. We note that the
             U.S. Department of Justice’s (Justice) Office of Intelligence Policy
             and Review, pursuant to E.O. 12333, reviewed the Procedures and all
             five subsequent supplements to the Procedures to determine if they
             were in compliance with E.O. 12333. An IN official stated that
             because the MOU is not a supplement to the Procedures, Justice did
             not have to review the MOU for compliance. We suggest that the
             Procedures be updated to include the NNSA and that the new
             Procedures be reviewed by Justice for compliance with E.O. 12333.

             The MOU states that the Director of IN will develop, implement, and
             oversee DOE policies for the protection of classified intelligence
             information. We noted that the two DOE orders for which IN has
             assigned responsibilities are outdated. DOE 5639.8A, “Security of
             Foreign Intelligence Information and Sensitive Compartmented
             Information Facilities,” dated July 23, 1993, and DOE 5670.1A,
             “Management and Control of Foreign Intelligence,” dated January 15,
             1992, collectively: 1) do not make reference to NNSA; 2) reference
             superseded Director of Central Intelligence Directives; 3) do not
             address the counterintelligence responsibilities of OCI and ODNCI;
             and 4) make references to defunct organizations. We discussed the
             outdated orders with IN Headquarters officials and were informed
             that IN is now establishing a process to update intelligence policies
             and procedures in conjunction with an intelligence community effort
             to update the Director of Central Intelligence Directives.




Page 5                                                    Details of Findings
RECOMMENDATIONS   We recommend that the Director, Office of Intelligence, in
                  coordination with the Director, Office of Counterintelligence, and the
                  Chief, Office of Defense Nuclear Counterintelligence, ensure that all
                  Federal and contractor intelligence and counterintelligence
                  employees:

                  1. Receive adequate training to ensure requisite familiarity with
                     Executive Order 12333 and the “Department of Energy
                     Procedures for Intelligence Activities”; and

                  2. Conduct annual reviews of all documents in their possession
                     for “U.S. persons” information, as required in the
                     “Department of Energy Procedures for Intelligence
                     Activities.”

MANAGEMENT        Management concurred with our recommendations and identified
COMMENTS          corrective actions to address our concerns. Management’s
                  comments are provided in their entirety in Appendix B.

INSPECTOR         We found management’s comments to be responsive to our report.
COMMENTS




Page 6                                                   Recommendations
                                        Management and Inspector Comments
Appendix A

SCOPE AND     As part of our review, we interviewed DOE and NNSA officials
METHODOLOGY   in IN, OCI, and ODNCI. We also interviewed DOE and NNSA
              officials at the Richland Operations Office and the Livermore Site
              Office and contractor officials at Pacific Northwest and Livermore.
              We also reviewed relevant intelligence and counterintelligence
              policies.

              Pursuant to the GPRA, we reviewed IN, OCI, and ODNCI
              performance measures relevant to intelligence activities. The U.S.
              Office of Management and Budget (OMB), which develops
              Federal guidance for performance measures, informed the DOE
              Office of Management, Budget and Analysis (ME) that IN, OCI,
              and ODNCI are not required to maintain or track performance
              measures. An ME official explained that OMB defines IN, OCI,
              and ODNCI as support offices to DOE and that performance
              measures from these offices do not need to be tracked for GPRA
              purposes. None of these three offices had performance measures
              relating to intelligence oversight. The intelligence oversight
              activities under consideration in this review are not quantifiable
              performance objectives for which performance measures are
              intended.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                                Scope and Methodology
Appendix B




Page 8       Management Comments
Page 9   Management Comments
Page 10   Management Comments
Page 11   Management Comments
Page 12   Management Comments
                                                                    IG Report No. INS-O-04-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
